   May 1, 2002




Environmental Programs

Audit Coverage of DoD
Energy Management
(D-2002-085)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
BCE                   Base Civil Engineer
DLA/DFSC              Defense Logistics Agency/Defense Fuels Supply Center
DUERS                 Defense Utility Energy Reporting System
ESPC                  Energy Savings Performance Contract
FEMP                  Federal Energy Management Program
GAO                   General Accounting Office
         Office of the Inspector General of the Department of Defense
Report No. D-2002-085                                                     May 1, 2002
 (Project No. D2002-D000CG-0047)

                Audit Coverage of DoD Energy Management

                                   Executive Summary

Introduction. The purpose of this report is to summarize issues identified in audit
reports on DoD energy management of buildings and facilities. Energy efficiency and
conservation is an area requiring effective management and emphasis because of rising
energy prices and potential supply problems in the United States.

DoD leads the Federal Government with approximately 2.2 billion square feet of
facilities. In FY 2000, the energy bill for military installations exceeded $2.4 billion.

Executive Order 13123, “Greening the Government Through Efficient Energy
Management,” June 3, 1999, and the National Defense Authorization Act for FY 2002
require DoD to significantly improve its energy management and to report annually
progress made toward achieving goals for reductions in energy consumption.

Results. During the past 10 years, the General Accounting Office and DoD audit
organizations issued 79 reports on DoD energy management. The General Accounting
Office issued 2 reports; the Inspector General of the Department of Defense issued
3 reports; the Army Audit Agency issued 28 reports; the Naval Audit Service issued
1 report; and the Air Force Audit Agency issued 45 reports.

The reports discussed the following key energy management issue areas:

     • Modernization Projects (14 reports)

     • Energy Savings Performance Contracts (13 reports)

     • Reimbursable Activities (43 reports)

     • Utilities Management (27 reports)

     • Conservation Program (25 reports)

     • Energy Reporting (10 reports)

Oversight of the energy program is necessary to ensure that the Department meets the
objectives and achieves the long-term goals mandated by the National Defense
Authorization Act for FY 2002.
Table of Contents

Executive Summary                               i


Introduction
     Background                                1
     Objective                                 3

Finding
     Audit Coverage of DoD Energy Management    4

Appendixes
     A. Summary Process
          Scope and Methodology                 8
     B. FY 2000 DoD Energy Scorecard            9
     C. Reports on Energy Management Issues    11
     D. Matrix of Key Issues                   35
     E. Report Distribution                    39
Background
    The “Annual Report to Congress on Federal Government Energy Management
    and Conservation Programs – Fiscal Year 1999” states that Federal agencies
    spent almost $8 billion for energy in that fiscal year. Since then, the Nation has
    experienced significant price increases across the entire spectrum of energy
    sources and throughout all regions of the country. DoD leads the Federal
    Government with approximately 2.2 billion square feet of facilities. The annual
    energy bill for military installations exceeded $2.4 billion in FY 2000.

    Federal Energy Management Requirements. The National Energy
    Conservation Policy Act of 1978, as amended by the Federal Energy
    Management Improvement Act of 1988, requires Federal agencies to establish
    in-house programs to reduce energy consumption by 10 percent by 1995, using
    FY 1985 as the base year. Executive Order 12759, “Federal Energy
    Management,” April 17, 1991, mandated that energy consumption be reduced
    by an additional 10 percent by the year 2000 (a total of 20 percent from base
    year 1985). Executive Order 13123 superseded Executive Order 12759 and
    establishes a 30 percent total reduction by 2005, and a 35 percent reduction
    by 2010.

    Executive Order 13123. Executive Order 13123 sets ambitious yet achievable
    energy management goals for the Federal Government. The goals target the
    following areas:

        • Greenhouse gases reduction,
        • Energy efficiency improvement,
        • Energy reduction goals for industrial and laboratory facilities,
        • Renewable energy use,
        • Petroleum use,
        • Source energy reduction, and
        • Water conservation.
    Executive Order 13123 charges the Federal Government, as the Nation’s largest
    energy consumer, with significantly improving its energy management and
    requires agencies to promote federal leadership in energy management and meet
    the goals of the executive order by implementing the following strategies:

       •   Life-cycle cost analysis,
       •   Facility energy audits,
       •   Financing mechanisms,
       •   Energy star and other energy-efficient products,
       •   Energy star buildings certification,
       •   Industrial facility efficiency improvements,
                                        1
              • Water conservation, and
              • Cost-effective renewable energy use.
           Executive Order 13123 also requires that each agency measure and annually
           report to the President its progress in meeting the goals and requirements of the
           order.

           National Defense Authorization Act for FY 2002. Section 317 of the National
           Defense Authorization Act for FY 2002 mandates the goals established in
           Executive Order 13123 for achieving reductions in energy consumption by DoD
           facilities. The Act also identifies strategies for improving energy efficiency and
           achieving the energy reduction goals. Some of these strategies include using
           energy savings performance contracts to achieve energy conservation,
           conducting energy-efficiency audits for approximately 10 percent of all DoD
           facilities each year, and retiring inefficient equipment on an accelerated basis
           when replacement results in lower life-cycle costs.

           Section 317 of the Act also requires that the Secretary of Defense report
           annually to the congressional defense committees on progress made toward
           achieving the goals.

           DoD Energy Management. DoD had not yet submitted its FY 2001 Energy
           Management Report to the Department of Energy when this report was issued.
           The FY 2000 Annual DoD Energy Management Report disclosed that the
           Department is on track to meet the energy reduction goals established by
           Executive Order 13123. DoD reported a 23 percent reduction from the
           FY 1985 baseline for energy consumption by facilities; the goal is a 30 percent
           reduction by FY 2005. DoD reported a 22.65 percent reduction from the
           FY 1990 baseline for energy consumption for industrial and laboratory facilities
           and has met the FY 2005 goal of Executive Order 13123. DoD is on track to
           meet the FY 2010 goal of a 25 percent reduction for industrial and laboratory
           facilities. For FY 2000, the DoD reported:

               •   investing $44.5 million in direct appropriations to accomplish projects
                   related to the goals of the executive order;

               •   issuing 58 energy savings performance contracts, valued at
                   $414.6 million, with an estimated life-cycle cost savings to the
                   Government of $56.4 million1; and

               •   issuing 41 utility energy services contracts, valued at $148.7 million,
                   with an estimated life-cycle cost savings to the Government of
                   $134.7 million2. (See Appendix B for FY 2000 reported energy
                   savings.)

1
    The Scorecard (see Appendix B) has been updated since its submission to OMB in December 2000.
    The dollar amounts reflect the most current adjustments.
2
    The Scorecard has been updated since its submission to OMB in December 2000. Both the number of
    utility energy service contracts and the dollar amounts reflect the most current adjustments.

                                                   2
               Energy Funding Sources. According to personnel from the Office of the
           Under Secretary of Defense (Comptroller), Congress appropriates military
           construction funds to DoD through the energy conservation investment program.
           For FY 2001, DoD requested $33.56 million and received $15 million dollars;
           for FY 2002, DoD requested $35.6 million and received $27.1 million.3 The
           Defense Components provide funding for energy-related projects through
           operation and maintenance accounts and are encouraged to maximize
           private-sector funding through the use of energy savings performance contracts.

                Energy Management Administration. The Principal Deputy Under
           Secretary of Defense (Acquisition, Technology, and Logistics) is the DoD
           senior agency official responsible for meeting the goals of Executive
           Order 13123. The Principal Deputy designated the DoD Installations Policy
           Board, chaired by the Deputy Under Secretary of Defense (Installations and
           Environment), as the DoD energy team. The team is responsible for expediting
           and encouraging the DoD use of appropriations, energy savings performance
           contracts, and other alternative financing mechanisms necessary to meet the
           goals and requirements of the executive order.

                The DoD facilities energy program is decentralized with Defense
           Component headquarters providing funding, and each military installation
           managing site-specific energy and water conservation programs. Installations
           are responsible for maintaining awareness, developing and implementing
           projects, and ensuring that new construction meets sustainable design criteria.



Objectives
           The objective of the report was to summarize issues identified in audit reports
           on DoD energy management of buildings and facilities. Audit coverage of
           weapon systems-related energy issues is not included in this summary report.
           See Appendix A for the discussion of scope and methodology.




3
    The FY 2002 appropriation included $6 million earmarked to conduct an assessment of energy
    renewable alternatives.




                                                    3
           Audit Coverage of DoD Energy
           Management
           During the past 10 years, the General Accounting Office (GAO) and
           DoD audit organizations issued 79 reports on DoD energy management.
           The GAO issued 2 reports; the Inspector General of the Department of
           Defense issued 3 reports; the Army Audit Agency issued 28 reports; the
           Naval Audit Service issued 1 report; and the Air Force Audit Agency
           issued 45 reports. The reports (see Appendix C) discuss the following
           key energy management issue areas:

               •   Modernization Projects (14 reports)
               •   Energy Savings Performance Contracts (13 reports)
               •   Reimbursable Activities (43 reports)
               •   Utilities Management (27 reports)
               •   Conservation Program (25 reports)
               •   Energy Reporting (10 reports)


Key Issues
    Key issues are those that were reported in five or more reports. Appendix C
    lists all the reports reviewed, and Appendix D contains a matrix of the issues
    addressed in each report.

    Modernization Projects. This issue, which is the process of updating or
    replacing existing equipment or systems with new equipment or systems in an
    effort to increase energy efficiency and lower costs, is discussed in 14 reports.
    Examples of reported problems were:

       •   Investment costs to modernize the heating plant at an Army installation
           were understated, and the resulting recurring savings were overstated.
           Modernization of the central heating plant was estimated to cost
           approximately $18.7 million, approximately $3.7 million more than the
           $15 million programmed. Anticipated recurring savings from this
           investment were $12 million during FYs 2000 through 2003. Actual
           recurring savings totaled approximately $1.13 million (see Appendix C,
           report 15). Estimated investment costs for a heating plant modernization
           project at another Army installation and the resulting recurring savings
           were overstated. Modernization or replacement of the 13 central heating
           plants would cost $11.24 million, approximately $1.76 million less than
           planned. The anticipated recurring savings from this investment were
           $10.4 million during FYs 2000 through 2003. Actual recurring savings
           totaled $3.2 million (see Appendix C, report 17).


                                         4
   •   An Army command did not fund the modernization of heating plants at
       two installations because operation and maintenance funds were needed
       to support day-to-day operations. As a result, none of the anticipated
       $8 million in savings were achieved (see Appendix C, report 23).

Energy Savings Performance Contracts. In FY 2000, DoD awarded
58 energy savings performance contracts (ESPCs) for $396.3 million. Thirteen
reports describe problems with ESPCs. An ESPC is a contract between an
installation and an energy service company whereby the energy service company
assumes the capital costs of installing energy and water conservation equipment
and renewable energy systems. Energy service companies guarantee a fixed
amount of energy savings throughout the contract life and are paid directly from
those energy savings. The installation retains the remainder of the energy cost
savings and assumes full ownership of the equipment and the savings after the
contract expires. Examples of reported problems were:

   •   At one Army installation, the baseline savings, representing
       approximately $141,000 in contractor payments over the life of the
       energy savings performance contract, were not supported (see
       Appendix C, report 9).

   •   At an Army base, incorrect energy statistics were used as a result of
       malfunctioning electrical and gas meters. The contractor was overpaid at
       least $1,238,000 from January 1994 through June 2000 for energy
       savings (see Appendix C, report 10).

   •   At one Air Force base, civil engineering personnel did not evaluate
       ESPCs as a viable alternative for energy conservation (see Appendix C,
       report 49).

Reimbursable Activities. Problems with reimbursable activities are discussed
in 43 reports. Host installations provide utility services to tenant organizations
on a reimbursable basis. Tenant organizations reimburse the host installations
on a monthly or quarterly basis for their portion of utilities consumed.
Examples of reported problems include:

   •   Many reimbursable customers at one Air Force base were not properly
       billed for their portion of utility consumption due to formula errors, such
       as incorrect meter reading. As a result, reimbursable customer accounts
       were underbilled $280,000 from March 1999 through June 2000 (see
       Appendix C, report 35).

   •   Civil Engineering personnel at another Air Force base did not properly
       bill 3 activities occupying a total of 19 facilities for an estimated
       $400,355 in utility services. Also, civil engineering personnel did not
       install electric meters for two reimbursable customers with an estimated
       $238,000 in annual electric consumption (see Appendix C, report 62).

Utilities Management. Twenty-seven reports discuss utilities management
issues. Effective management of base utility costs should provide opportunities
to obtain utilities at more favorable rates. Examples of reported problems were:
                                     5
   •   An Air Force installation contracted directly with the local distribution
       company for firm natural gas supply when they were required to contract
       through Defense Logistics Agency/Defense Fuels Supply Center
       (DLA/DFSC). Use of Defense Fuels Supply Center contracted firm gas
       could result in a cost reduction of $1,686,708 over the 6-year defense
       plan (see Appendix C, report 38).

   •   At another Air Force installation, the contracting office did not negotiate
       most favorable electricity rates. A comparison of actual costs paid with
       rates from another local electric company indicated that the base
       overpaid $395,967 for electrical power over a 6-month period (see
       Appendix C, report 57).

Conservation Programs. Twenty-five reports discuss conservation programs.
The Federal Energy Management Improvement Act of 1988 requires Federal
agencies to establish in-house programs to reduce energy consumption.
Conservation programs describe methods and management tools used to achieve
energy reduction goals. Examples of reported problems include:

   •   Some Army installations were not following regulatory requirements for
       establishing and sustaining effective energy programs and had not
       implemented or enforced low- and no-cost energy conservation measures
       to reduce energy consumption. As a result, installations did not fully
       realize energy conservation savings, and some did not meet their annual
       energy reduction goals (see Appendix C, report 32).

   •   An Army installation did not have an effective energy conservation
       program. Specifically, the Directorate of Engineering and Housing did
       not implement energy conservation measures to reduce energy
       consumption. As a result, the installation did not meet its FY 1991
       energy goal (see Appendix C, report 33).

Energy Reporting. Ten reports discuss energy reporting issues. Military
installations are required to report all energy consumption through the Defense
Utility Energy Reporting System (DUERS). The Office of the Secretary of
Defense uses the DUERS data for reports to Congress, the Department of
Energy, and other Federal agencies. Examples of identified problems were:

   •   Civil engineering personnel at one Air Force base did not accurately
       report DUERS energy consumption data. Natural gas purchased from
       one vendor was not reported, and other utility consumption was either
       excluded or double counted from the DUERS report (see Appendix C,
       report 72).




                                    6
       •   Energy managers at another Air Force installation used inaccurate
           consumption data and building square footage and made improper
           calculations in the DUERS reports (see Appendix C, report 73).



Conclusion
    The 79 reports issued during the past 10 years by GAO and DoD audit
    organizations identify numerous opportunities for improving energy
    management, efficiency, and conservation. Energy efficiency and conservation
    is an area requiring effective management and emphasis because of rising
    energy prices and potential supply problems in the United States. Oversight of
    the energy program is necessary to ensure that the Department meets the
    objectives and achieves the long-term goals mandated by the National Defense
    Authorization Act for FY 2002.




                                       7
Appendix A. Summary Process
   Scope and Methodology. This report summarizes DoD energy-related audit
   coverage from January 1993 to August 2001. We identified 79 reports issued
   by the GAO; Inspector General of the Department of Defense; the Army Audit
   Agency; the Naval Audit Service; and the Air Force Audit Agency. We did not
   attempt to independently validate the information in the reports. The reports
   were reviewed, summarized, and analyzed to identify key energy management
   issue areas.

   Limitations to Scope. We limited the scope of our review by excluding all
   energy reports related to weapons systems and vehicles.

   Use of Computer-Processed Data. We did not use computer-processed data in
   our review.

   Contacts. We visited or contacted individuals and organizations within DoD.
   Further details are available upon request.




                                     8
Appendix B. FY 2000 DoD Energy Scorecard




                     9
10
Appendix C. Reports on Energy Management
            Issues

General Accounting Office
    These reports are available on the GAO Home Page at http://www.gao.gov.

    1. GAO Report No. RCED-94-96, “Energy Conservation: Contractors’
    Efforts at Federally Owned Sites,” April 29, 1994. The report was issued in
    response to a Congressional request to evaluate the energy use and conservation
    measures employed at locations where contractors perform work for the Federal
    Government in government-owned buildings. Among the five Components
    reviewed were the Departments of the Air Force, Army, and Navy. The report
    stated that the contractors’ energy-reduction efforts were having positive results.
    Contractors were making only limited use of the three main energy-reduction
    incentives available to contractors: rebates from utilities, federal funding
    designated for energy conservation measures, and contracts between the
    Government and a company to share in dollars saved through energy
    conservation efforts (or ESPCs).

    2. GAO Report No. RCED-94-70, “Energy Conservation: Federal
    Agencies’ Funding Sources and Reporting Procedures,” March 30, 1994.
    The report was issued in response to a Congressional request to provide the
    latest information available (through FY 1992) on the energy conservation
    activities at the six largest energy-consuming agencies, including the DoD. The
    report stated that the DoD had reduced its energy consumption by 6.6 percent
    and spent $470.7 million (in FY 1992 dollars) in energy conservation measures
    for FYs 1985 through 1992. The report also stated that the DoD was using
    funding sources such as general and direct appropriations, energy savings
    performance contracts, and retained energy savings to support the energy
    conservation initiatives.



Inspector General of the Department of Defense (IG DoD)
    These reports are available on the Inspector General of the Department of
    Defense, Home Page at http://www.dodig.osd.mil.

    3. IG DoD Audit Report No. 97-158, “Use of Energy Conservation
    Measures in the Design of New Military Facilities,” June 11, 1997. Military
    Departments used inconsistent baselines for measuring progress in conserving
    energy in new buildings and did not aggressively reduce targets for energy use
    in new designs, even though these targets did not keep pace with overall energy
    reductions mandated by Executive Orders, and the DoD had increased its
    emphasis on infrastructure cost reduction. As a result, new facilities were not

                                        11
designed to ensure maximum energy conservation and minimum utility costs.
The Army and the Air Force did not provide sufficient data to reach conclusions
about future monetary benefits. The Army and Air Force monetary benefits
would likely be greater than those of the Navy because current Army and Air
Force target reductions have lagged behind the Navy. The report recommended
that the Deputy Under Secretary of Defense (Industrial Affairs and Installations)
revise energy conservation guidance to incorporate a 25 percent reduction in
energy design targets from the FY 1987 level for mandatory use by all Military
Departments. Management concurred with the finding and recommendation.

4. IG DoD Audit Report No. 97-070, “Use of Energy Conservation Funds,”
January 15, 1997. Military Departments used energy funds for energy
conservation purposes; however, the commitment of the DoD to conserve
energy needed improvement. The DoD has no assurance that funds were used
as effectively as possible to achieve program objectives and goals. Of the
41 projects reviewed, 38 did not have adequate supporting documentation for
the estimated cost and/or energy reductions cited. Further, eight projects had
computation errors resulting in no energy reductions when the computations
were done correctly. There was no firm basis on which to believe that Federal
energy goals would be attained or that opportunities to reduce DoD
infrastructure costs through reduced facilities energy use were fully exploited.
We recommended that the Under Secretary of Defense for Acquisition and
Technology establish an integrated process team to evaluate DoD resources in
relation to management’s commitment to meeting mandated energy reduction
goals. The report recommended that the Deputy Under Secretary of Defense
(Industrial Affairs and Installations) issue instructions to the Military
Departments to strengthen management and oversight of the energy program.
Management concurred with the finding and recommendations.

5. IG DoD Audit Report No. 93-055, “Implementation of the Energy Policy
Act of 1992,” February 18, 1993. DoD reported energy consumption
decreased by 27.3 percent from FYs 1975 to 1985. This approximated a
$700 million energy savings in terms of current facility energy use. The Army,
the Navy, and the Air Force reduced energy consumption by 17.3 percent,
11 percent, and 11.6 percent, respectively, from FYs 1985 through 1991. The
report concluded that, as a whole, DoD implemented an in-house energy
conservation program and put in place accounting mechanisms to assess the
accuracy and reliability of energy consumption and energy cost figures.
However, because of the short time frame allowed for the audit, the report did
not test the accuracy of the reported energy costs. The report recommended that
the Military Departments update energy management plans annually, and the
Marine Corps establish an energy management plan. The report also
recommended that the Military Departments and the Defense Logistics Agency
establish procedures to verify that field installations maintain awareness of and
implement energy management plans. Management agreed with the
recommendations.




                                   12
Army Audit Agency
    These reports are available on the Army Audit Agency Home Page at
    http://www.aaa.army.mil.

    6. Consulting Report No. AA 01-822, “Review of Energy Savings
    Performance Contract, U.S. Army Intelligence Center and Fort
    Huachuca,” August 1, 2001. Problems with the terms and provisions of task
    orders resulted in overstated savings amounts and projected overpayments to the
    contractor. Methodology and math errors in computing energy savings resulted
    in projected overpayments to the contractor totaling approximately $597,000.
    The report suggested that the garrison commander negotiate with the energy
    savings performance contractor to reduce payments corresponding to a decrease
    in operating days, amend task orders to eliminate duplication of workload
    requirements, and negotiate appropriate adjustments to the buyout of the task
    orders. Management agreed that the potential monetary benefits were
    reasonable.

    7. Audit Report No. AA 01-183, “Review of Energy Savings Performance
    Contract SP0600-99-D-8003, Energy Conservation Measure 11,”
    July 17, 2001. The proposed baseline and savings associated with the energy
    conservation measure for water were significantly overstated. The report
    recommended that the Military District of Washington assist the contracting
    officer in adjusting the baseline and savings for the energy conservation measure
    and determine whether an additional adjustment for operation and maintenance
    costs is necessary.

    8. Consulting Report No. AA 01-718, “Audit of Energy Savings
    Performance Contracts,” January 25, 2001. Analysis showed that replacing
    existing incandescent light bulbs with new compact fluorescent light bulbs would
    result in monetary benefits totaling approximately $16.2 million, and energy
    savings of approximately 640 million kilowatt hours over the life cycle of the
    investment. The report recommended the use of fluorescent lighting. The
    Principal Deputy Assistant Secretary of the Army (Installations and
    Environment) and the Office of the Assistant Chief of Staff for Installation
    Management, Facilities and Housing, agreed with the policy to replace
    incandescent bulbs with compact fluorescent bulbs and with the projected energy
    and monetary savings.

    9. Audit Report No. AA 01-135, “Review of Energy Savings Performance
    Contract DACA87-97-D-0069,” January 9, 2001. Baseline savings of
    approximately $141,000 in contractor payments over the life of the energy
    savings performance contract were not supported. The total amount included
    $54,000 for interior lights that were not installed, $29,000 for light fixtures not
    included in the contract, and $58,000 for excessive hours of operation and use
    of an apparently flawed simulation. The baseline also included an additional
    $18,000 in savings that may not be achieved because of an overlapping contract.
    The report recommended that the Commander, Joint Readiness Training Center


                                        13
and Fort Polk, conduct a 100 percent inspection and reconciliation of installed
light fixtures and other equipment and review and validate baseline and energy
savings data.

10. Audit Report No. AA 01-74, “Review of Energy Savings Performance
Contract DACA87-94-C-0008,” November 22, 2000. The baseline included
inaccuracies in the amount of electricity and gas used each month during the
baseline period. The baseline energy statistics were inaccurate primarily
because of malfunctioning electrical and gas meters and incorrect meter
readings. The report concluded that Fort Polk overpaid the contractor at least
$1,238,000 from January 1994 through June 2000 for energy savings. The
report recommended that the Commander, Joint Readiness Training Center, and
Fort Polk recoup the overstated payments.
11. Audit Report No. AA 01-73, “Review of Energy Savings Performance
Contract DADA10-96-D-0017,” November 9, 2000. Various contract
discrepancies resulted in Walter Reed Army Medical Center overpaying the
contractor for energy savings generated from the energy conservation measures
installed in various buildings on the main campus. The report recommended
that the Commander, U.S. Army Medical Command, establish and incorporate
the revised baseline, calculate an adjustment in the energy savings payment to
correct previous payments to the contractor, revise future energy savings
payments to incorporate the revised baseline and energy savings, and modify the
existing task order to incorporate the required changes.

12. Audit Report No. AA 01-72, “Review of Energy Savings Performance
Contract DADA10-96-D-0018,” November 9, 2000. Various contract
discrepancies resulted in Walter Reed Army Medical Center overpaying the
contractor for energy savings that were not generated in various buildings at the
Forest Glen Location. The Medical Center did not realize the $5,300 in annual
savings generated by the installation of high-efficiency window air-conditioning
units. Also, the Medical Center did not realize the $5,400 in annual savings
generated by the installation and repair of pipe insulation. The report
recommended that the Commander, U.S. Army Medical Command, use
inspection, reconciliation, and validation data from Walter Reed Army Medical
Center to establish and incorporate a revised baseline, calculate an energy
adjustment in the saving payment to correct previous payments, revise future
energy saving payments to incorporate the validated baseline and energy
savings, and modify the existing task order to incorporate the required changes.

13. Consulting Report No. AA 00-795, “Review of Energy Policy
Development,” September 22, 2000. Energy savings performance contracts,
as a stand-alone investment strategy, would not provide sufficient capital to
resource the Army projected requirement of $800 million. The report
recommended investment alternatives, such as new investments, contract
buy-outs, and performance contracts using a portfolio management approach
rather than as mutually exclusive options. Also, the evaluation criteria should
be revised to focus on cash flows and incorporate time periods and
reinvestment.


                                    14
14. Memorandum Report No. AA 00-17, “Utility Rate Computation, Audit
of Interservice Support Costs and Reimbursements,” October 12, 1999.
Guidance for developing utility sales rates was not followed in five areas. Real
property costs used in utility rate computations by U.S. Army, Alaska, did not
match the real property records resulting in understated rates. There was no
audit trail to validate operation and maintenance costs. High dollar value
nonrecurring maintenance costs incurred during the year were spread over
20 years instead of 5 years, as prescribed by guidance, which could result in
abnormal variations in the sales rates. The report recommended that the U.S.
Army, Alaska, document real property costs for government-owned utility
facilities; maintain an adequate audit trail of operation and maintenance costs
shown in the Army Management Structure codes; and document all abnormal
maintenance costs that occurred in the past 5 years. Also, the U.S. Army,
Alaska, needed to determine what methodology will be used to develop water
sales rates for Elmendorf AFB and determine the proper method for computing
capital costs for the Ship Creek Dam.

15. Audit Report No. AA 99-399, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants,
Fort Campbell, Kentucky,” September 2, 1999. Investment costs to
modernize the Fort Campbell heating plant were understated, and the resulting
recurring savings were overstated. Modernization of the central heating plant
was estimated to cost approximately $18.7 million, $3.7 million more than the
$15 million programmed. Anticipated recurring savings from this investment
were approximately $12 million during FYs 2000 through 2003. Actual
recurring savings totaled approximately $1.13 million (overstated by
$10.87 million). The report recommended that the Assistant Chief of Staff for
Installation Management reduce the estimated recurring savings from the
program objective memorandum for Fort Campbell’s central heating plant
projects by approximately $10.87 million if the project continues; and update
program objective memorandum efficiency charts to show a cost avoidance of
almost $4.76 million if the project continues. Management concurred with the
findings and recommendations.

16. Audit Report No. AA 99-363, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, Fort Benning,
Georgia,” August 12, 1999. The estimated investment costs of phase II of a
Fort Benning utilities modernization project were overstated by approximately
$3.8 million, and recurring savings during the program years were overstated
by approximately $3.6 million. The report recommended that the Assistant
Chief of Staff for Installation Management reprogram approximately
$3.8 million of Fort Benning’s funding to meet valid approved central heating
plant modernization projects. Although management concurred, this
recommendation could not be implemented because the funds had already been
distributed and obligated. The report also recommended that estimated program
objective memorandum savings for phase II of Fort Benning’s central heating
plant project be reduced by approximately $3.6 million, the Assistant Chief of
Staff update program objective memorandum efficiency charts to show the cost
avoidance for Fort Benning of approximately $5.1 million and reclassify the


                                   15
Army central heating plant modernization program objective memorandum
efficiency. Management concurred with the findings and recommendations.

17. Audit Report No. AA 99-362, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, Fort Eustis,
Virginia,” August 12, 1999. Investment costs to modernize Fort Eustis heating
plants and the resulting recurring savings were overstated. Modernization or
replacement of the 13 central heating plants would cost approximately
$11.24 million, $1.76 million less than planned. The anticipated recurring
savings from this investment were $10.4 million during FYs 2000 through 2003.
Actual recurring savings totaled approximately $3.2 million. The report
recommended that the Assistant Chief of Staff for Installation Management
reduce estimated recurring savings for the project by $7.24 million and update
the program objective memorandum efficiency charts to show a cost avoidance
of $10.74 million. Management concurred with the findings and
recommendations.

18. Consulting Report No. AA 99-765, “Consulting Review of Funding for
Utility Privatization,” June 23, 1999. The report estimated a $146 million
funding shortfall in program objective memorandum 01-05 for the J account,
$3 million less than the Headquarters, Forces Command estimate of
$149 million. According to the report, the shortfall can be reduced to
approximately $82 million by reprogramming K account funding to the
J account to satisfy maintenance and repair requirements that will be paid from
the J account after systems are privatized. The report recommended that the
Office of the Deputy Chief of Staff for Personnel and Installation Management
continue to monitor and update the funding shortfall at Forces Command
installations as bids are received and contracts are awarded for utility
privatization. Management concurred with the results of the review and
recommendation.

19. Audit Report No. AA 99-232, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, Fort Jackson,
South Carolina,” May 7, 1999. The report stated that the investment costs of
$11 million for phase I in the program objective memorandum efficiency were
generally accurate and supported. At the time of review, phase II investment
costs had not been adequately defined. The anticipated recurring savings of
$20.6 million for both phases were overstated by approximately $19.8 million.
The Fort Jackson system was in such poor condition that, by doing the
modernization, the installation would avoid costs totaling approximately
$11.9 million during FYs 1999 through 2003 to repair the existing plants. The
report recommended that the Assistant Chief of Staff for Installation
Management reduce estimated program objective memorandum savings for the
Fort Jackson central heating plant project by $19.8 million and update the
program objective memorandum efficiency charts to show cost avoidance of
$11.9 million. Management concurred with the findings and recommendations.




                                   16
20. Audit Report No. AA 99-225, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plant, Fort Riley,
Kansas,” May 7, 1999. The report stated that the investment costs of
$4 million for the program objective memorandum efficiency were accurate and
supported. The anticipated recurring savings of $3.2 million during the
program years were overstated by approximately $2.4 million. The Fort Riley
heating plant distribution system needed major repair, and the heating plant
boilers were close to the end of their expected useful life. By replacing the
existing central heating plant boilers with individual heating systems in each
building and the central plant chillers with electric chillers, the installation
would avoid costs totaling approximately $3.3 million during the program years.
The report recommended that the Assistant Chief of Staff for Installation
Management reduce the estimated program objective memorandum savings for
the Fort Riley central heating plant project by $2.38 million and update program
objective memorandum efficiency charts used to brief Army leaders to show
$3.3 million in cost avoidance for Fort Riley. Management concurred with the
findings and recommendations.

21. Audit Report No. AA 99-224, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, Fort Leonard
Wood, Missouri,” April 19, 1999. The anticipated recurring savings of
$6 million during the program years were overstated by approximately
$3.1 million, and the existing central heating plant’s steam distribution system
was approximately 37 years old and needed major repairs. By replacing the
centralized heating system with individual heating systems, Fort Leonard Wood
would avoid repair costs to the distribution system totaling approximately
$6 million during the program years. The report recommended to reduce
estimated program objective memorandum savings for the Fort Leonard Wood
central heating plant project by $3.1 million and update program objective
memorandum efficiency charts used to brief Army leaders to show cost
avoidance for Fort Leonard Wood of $6 million. Management concurred with
both findings and recommendations.

22. Audit Report No. AA 99-183, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, U.S. Army
Aberdeen Proving Ground, Maryland,” April 8, 1999. The anticipated
recurring savings of $10 million during the program years were overstated by
approximately $8.74 million. The report recommended reducing estimated
savings for the utilities modernization efficiency by $8.7 million for Aberdeen
Proving Ground. Management concurred with the finding and recommendation.

23. Audit Report No. AA 99-184, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plants, Fort Belvoir,
Virginia, and Fort Meade, Maryland,” April 2, 1999. The Military District
of Washington did not provide Fort Meade and Fort Belvoir with sufficient
funding to implement the cost to renovate the heating plants. Although the
Assistant Chief of Staff for Installation Management funded these two
modernization projects, the U.S. Army Military District of Washington withheld
the $4 million designated for Fort Meade and withheld $1.1 million of Fort
Belvoir’s funds. The Military District of Washington reclaimed the funds when

                                   17
Fort Belvoir could not modernize its heating plant with the reduced funding.
The Military District, in a memorandum to the Director of Program Analysis
and Evaluation, stated that it did not fund these projects because operation and
maintenance funds were needed to support day-to-day operations. As a result,
none of the anticipated $8 million in savings will be achieved. The report
recommended reducing estimated savings for the utility modernization efficiency
by $8 million for Fort Belvoir and Fort Meade, funding design costs subsequent
to the Assistant Chief of Staff for Installation Management’s approval of the
economic analysis, and funding modernization costs subsequent to design
completion. Management concurred with the finding and recommendations.

24. Audit Report No. AA 99-189, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plant, Fort Benning,
Georgia,” March 31, 1999. The anticipated recurring savings of $10 million
during the program years were overstated by approximately $8.6 million.
However, the Fort Benning heating plant was in such poor condition that, by
replacing the existing heating plant with individual heating systems in each
building, the installation would avoid costs totaling approximately $16.6 million
during FY 1999 to repair the existing plant. In addition, the renovated heating
plant would have resulted in recurring savings during the program years totaling
approximately $1.4 million. The report recommended reducing estimated
program objective memorandum savings for the Fort Benning central heating
plant project by $8.6 million and updating program objective memorandum
efficiency charts to show cost avoidance for Fort Benning of $16.6 million. The
report also recommended installations scheduled for heating plant modernization
to submit an economic analysis for review the year prior to funding.
Management concurred with the findings and recommendations.

25. Audit Report No. AA 99-188, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plant, Fort Lewis,
Washington,” March 31, 1999. The estimated investment costs of $11 million
for the program objective memorandum efficiency were overstated by
approximately $4.2 million. The anticipated recurring savings of $11 million
during the program years were overstated by approximately $10.1 million. The
existing heating system at Fort Lewis was in poor condition and by modernizing
the current system in FY 1998, the installation avoided costs to maintain and
repair the existing heating plant and distribution system totaling approximately
$15.7 million in FY 1999. The report recommended reducing estimated
program objective memorandum savings for the Fort Lewis central heating plant
project by $10.1 million, updating program objective memorandum efficiency
charts to show cost avoidance for Fort Lewis of $15.7 million, requiring
installations scheduled for heating plant modernization to submit an economic
analysis for review the year prior to funding, and funding future design costs
subsequent to the Assistant Chief of Staff’s approval of the economic analysis.
Management concurred with all findings and recommendations.




                                   18
26. Audit Report No. AA 99-181, “Program Objective Memorandum 98-03
Efficiencies, Utilities Modernization - Central Heating Plant, Fort
Campbell, Kentucky,” March 30, 1999. The cost to upgrade Fort Campbell’s
heating plant was greater than costs estimated in the program objective
memorandum efficiency, and savings were less than estimated. The report
recommended not funding Fort Campbell's central heating plant renovation
project for FY 1999 and centralizing funding for future heating plant
modernization projects remaining in the program objective memorandum
efficiency. Management concurred with the finding and both recommendations.

27. Information Memorandum No. AA 98-732, “Review of Heating
Alternatives at Fort Drum,” May 11, 1998. The natural gas conversion
project was more cost-effective than the shallow trench modernization project.
The memorandum recommended approving the natural gas conversion project
proposed by Fort Drum.

28. Audit Report No. AA 98-45, “Army’s Utility Privatization Program,”
December 18, 1997. Implementation of the Army Utility Privatization Program
needed improvement to ensure that the Army meets its goal for privatizing
utility services. Progress toward privatized utility services was slow during the
program’s early years because Army policy and guidance was not always
effective or followed. The report recommended that the Assistant Chief of Staff
for Installation Management develop an implementation plan for utility
privatization, use proposals in privatization studies, and streamline privatization
studies for gas distribution systems. Management concurred with the finding
and recommendations.

29. Audit Report No. AA 97-157, “Planned Construction of a Wastewater
Treatment Plant at Fort Carson, Colorado,” March 14, 1997. A
privatization study estimated that Fort Carson would save at least $4.5 million
over 25 years by privatizing wastewater treatment services. The report
recommended terminating the contract to construct a wastewater treatment plant
at Fort Carson for convenience, determining and paying termination costs on the
contract, privatizing wastewater treatment services at Fort Carson, and
reprogramming funds remaining from termination of the treatment plant contract
and apply them, if possible, towards paying privatization costs identified by the
City of Colorado Springs. Management agreed with the recommendations.

30. Audit Report No. AA 96-205, “Utility Services, Fort Riley, Kansas,”
May 20, 1996. Fort Riley spent too much for its natural gas service during
FY 1995 to help ensure that gas service would not be interrupted if the provider
could not fill all demands. Although rare, interrupted service could occur
because of insufficient pipeline capacity or reduced natural gas supplies. Even
though it paid the higher rate, Fort Riley was not guaranteed uninterrupted
service because gas service could be interrupted for other reasons, such as
pipeline damage. The installation’s policy was to pay the higher rate for
uninterrupted natural gas service to protect both the health of post personnel and
to carry out the installation’s mission. However, Fort Riley could have obtained
a lower rate by installing an emergency backup storage system. Installation
Public Works personnel had discussed the need to install a backup system, but

                                    19
did not make a formal proposal. A storage system would also protect against
other types of service interruptions. The benefits from getting a lower
transmission rate are significant. Fort Riley could save an estimated
$941,000 annually. The report recommended that the base commander perform
an assessment to identify the installation's minimum requirements for a natural
gas backup system and determine the cost of a backup fuel system.
Management concurred with the finding and recommendations.

31. Audit Report No. CR 95-10, “Electrical Utility Billings U.S. Army
Armor Center and Fort Knox, Fort Knox, Kentucky,” May 30, 1995. Fort
Knox procedures for managing contracts for electrical utilities were adequate.
Electric bills were accurate and supported. However, there was a minor
problem with the timeliness of payments. No management control problems
were found. No recommendations were made.
32. Audit Report No. WR 93-A1, “Facility Energy Conservation,”
August 3, 1993. Some installations needed to improve their management of
facility energy conservation programs. Specifically, the installations did not
follow regulatory requirements for establishing and sustaining effective energy
programs. In addition, some installations did not implement or enforce
low- and no-cost conservation measures to reduce energy consumption. As a
result, installations did not fully realize energy conservation savings, and some
installations did not meet their annual energy reduction goals. The report
recommended the installation commander implement the energy conservation
program required by Army Regulation 11-27, “Army Energy Program,”
February 3, 1997, and conservation measures determined to be economically
feasible. Management agreed with the recommendations.

33. Audit Report No. WR 93-4, “Energy Conservation U.S. Army
Intelligence Center and Fort Huachuca, Fort Huachuca, Arizona,”
January 22, 1993. Fort Huachuca did not have an effective energy
conservation program. Specifically, the Directorate of Engineering and
Housing did not implement energy conservation measures to reduce energy
consumption. Because Fort Huachuca did not have an effective energy
conservation program, the installation did not meet its FY 1991 energy goal.
The report recommended that the Army implement an energy conservation
program as required by Army Regulation 11-27, “Army Energy Program,”
February 3, 1997, and Training and Doctrine Command Regulation 420-11.
Management agreed with both the recommendation and the potential monetary
benefits.




                                    20
Naval Audit Service
    This report is available on the Naval Audit Service Home Page at
    http://www.hq.navy.mil/NavalAudit.

    34. Naval Audit Service Report No. N2000-0003, “Energy Conservation at
    the Naval Air Station, Patuxent River, MD,” October 19, 1999. The report
    stated that Naval Air Station, Patuxent River, reported inaccurate energy usage
    data to DUERS for energy used at the naval air station. There was a lack of
    adequate internal controls over the data entry and calculation of data by the
    public works energy engineer, and errors were in the calculations on the
    spreadsheet for electricity usage data. The report recommended that Naval Air
    Station, Patuxent River, establish procedures to improve internal controls over
    the accuracy of information entered into DUERS, and direct the public works
    energy engineer to correct calculation errors for electricity usage data.
    Management concurred with the findings and recommendations.



Air Force Audit Agency
    These reports are available on the Air Force Audit Agency Home Page at
    http://www.afaa.hq.af.mil.

    35. Audit Report No. DR001013, “Utilities Management, Warner Robbins
    Air Logistics Center, Robins AFB, GA,” April 11, 2001. Overall,
    management needed to improve the effectiveness of the procedures and internal
    controls used to manage the utilities program. Many reimbursable customers
    were not properly billed for their portion of utility consumption due to formula
    errors, such as incorrect meter reading. As a result, reimbursable customer
    accounts were underbilled $280,000 from March 1999 through June 2000. The
    report recommended that the Civil Engineer Group Commander assign
    appropriate personnel to perform reviews of all Interim Work Information
    Management System formulas used for customer billing and direct the Chief of
    Operations to review and coordinate on the Interim Work Information
    Management System monthly billing reports to provide adequate oversight for
    customer account charges. Management concurred with the audit results and
    recommendations.

    36. Audit Report No. EA099054, “Utility Cost Management, 11th Wing,
    Bolling AFB, DC,” June 23, 1999. The report stated that the 11th Civil
    Engineering Squadron did not effectively manage utility costs. Specifically, the
    base public utility specialist did not validate the accuracy of rates charged and
    payment-processing periods. In addition, base civil engineering (BCE)
    personnel did not implement energy saving recommendations cited in two
    energy survey reports issued in 1993 and 1998, did not have adequate assurance
    that electric and natural gas usage was accurately metered, did not request a
    legal opinion on the requirement to pay an annual gross receipts tax for natural

                                       21
gas service totaling $255,246 over 6 years, and did not perform required annual
utility contract reviews. The report recommended that the 11th Civil
Engineering Squadron Commander direct BCE personnel to obtain and maintain
a current copy of all utility contract specifications; develop and implement
procedures to compare billed rates and stated processing periods to current
contract specifications; limit future billing certifications of rendered services to
utility bills, based on current contract-specified rates and processing periods;
and implement the recommendations contained in two energy survey reports.
The report also recommended that the 11th Civil Engineering Squadron
Commander direct the base utility engineer to request meter tests from the local
utility companies, request a legal opinion on the requirement to pay the gross
receipts tax, and ensure that annual reviews of all utility contracts are
performed, signed, and maintained and the public utility specialist be informed
of all significant contract changes identified during the reviews. Management
concurred with the audit results and recommendations.

37. Audit Report No. EO099003, “Utility Cost Management, 55th Wing,
Offutt AFB, NE,” October 1, 1998. The report stated that civil engineering
personnel often processed reimbursements inaccurately or incompletely.
Maintenance engineering personnel were not always notified when reimbursable
customers initially occupied space on base. In addition, some reimbursable
customers received electricity directly from the local supplier and were billed at
the lower base rate instead of the supplier’s monthly rate. Correct billing could
have resulted in additional reimbursements of $7,910 annually. The report
recommended that the Chief, Operations Flight, direct resource management
personnel to bill agencies not previously identified to reimburse for utilities.
Management concurred with the audit results and recommendation.

38. Audit Report No. EO099001, “Utility Cost Management, 509th Bomb
Wing, Whiteman AFB, MO,” October 1, 1998. The report stated that the
management of utility costs could be improved. Alternate utility sources were
not always investigated to obtain the lowest possible rates pertaining to natural
gas contracts, and internal controls relating to utility reimbursements were not
always effectively implemented. Specifically, the base contracted directly with
the local distribution company for firm natural gas supply when they were
required to contract through Defense Logistics Agency/Defense Fuels Supply
Center (DLA/DFSC). Use of Defense Fuels Supply Center contracted firm gas
could result in a cost reduction of $1,686,708 over the 6-year defense plan. The
report recommended that the BCE direct the utility engineer to report firm gas
requirements to DLA/DFSC for appropriate contract action, develop utility sales
agreements for identified activities, and update sales agreements and adjust bills
accordingly. The wing commander nonconcurred with the audit finding,
potential monetary benefit, and recommendation that natural gas requirements
be reported to DLA/DFSC. Management was concerned that
DLA/DFSC-supplied firm gas could be cut off in times of great demand on the
pipelines. They felt that while a DLA/DFSC firm gas contractor who failed to
supply gas to the local distribution company would pay for all damages to the
base, this was no comfort to base military families who would have no heat.
Management concurred with the other audit finding and recommendations.


                                     22
39. Audit Report No. DD098010, “Reimbursable Utility Costs, 163d Air
Refueling Wing, March Air Reserve Base, CA,” September 17, 1998.
Management of reimbursable utility costs could be improved. The BCE
certified utility costs for water and wastewater without a utility sales agreement
or sufficient supporting documentation. As a result, the 163d Air Refueling
Wing overpaid as much as $18,525 for water and wastewater from May 1996
through July 1997. The report recommended that the 163d Air Refueling Wing
Commander direct the BCE to certify utility vouchers for water and wastewater
only when sufficient supporting documentation is provided, request that the
452d Air Mobility Wing determine correct amount of previous water and
wastewater costs and refund or credit the amount overcharged, and establish a
written sales agreement to formally establish applicable utility rates.
Management concurred with the finding and recommendations.
40. Audit Report No. EL098054, “Utility Cost Management, 1st Fighter
Wing, Langley AFB, VA,” September 10, 1998. Although the 1st Fighter
Wing energy projects are minimizing use and are estimated to save
$1.08 million annually, additional improvements to the utility cost program
could be achieved. Base personnel did not evaluate opportunities to obtain the
lowest available rates, process utility payments promptly, use correct utility
rates when determining reimbursement amounts, and review support agreements
that supplied free utilities to two reimbursable activities. The report
recommended that the Commander, 1st Civil Engineering Squadron, direct the
utility engineer to perform the required annual contract review as soon as
possible for utility services, establish procedures to perform the required annual
review each year or any time a contract is modified, and establish and
implement procedures to perform utility sales agreement and rate reviews by
December 1 of each year. Management concurred with the findings and
recommendations.

41. Audit Report No. EA098032, “Utility Cost Management, 89th Airlift
Wing, Andrews AFB, MD,” September 9, 1998. Installation tenants were not
accurately identified and billed for utilities and although sufficient conservation
projects were implemented, the estimated savings were not always validated.
The report recommended that the Commander, 89th Civil Engineering Squadron
require the BCE Funds Manager to strengthen procedures for identifying and
billing customers for utilities, bill and collect past and future charges from
identified offices, and require the Chief, BCE Mechanical Engineering to
validate plant project savings and report results to the command and, in the
future, validate project savings within time requirements. Management
concurred with the findings and recommendations.

42. Audit Report No. DD098008, “Utility Cost Management, 452d Air
Mobility Wing, March Air Reserve Base, CA,” September 3, 1998. The
452d Air Mobility Wing utility program was not effectively managed.
Specifically, utility cost management coordination between the base and its joint
responsible party, the Air Force Base Conversion Agency, was not adequately
documented, and written utility sales agreements between the base and tenants
had not been established. The report recommended that the 452d Air Mobility
Wing Commander document utility responsibilities between the base and Air

                                    23
Force Base Conversion Agency and direct the BCE to establish written utility
sales agreements with base tenants. Management concurred with the finding
and recommendations.

43. Audit Report No. DE098024, “Utility Cost Management, 16th SOW,
Hurlburt Field, FL,” September 3, 1998. Base civil engineering personnel
did not establish a utility management brochure for family housing and had not
performed annual utility rate reviews. The report recommended that the BCE
establish a cost-efficient utility contract with the supplier of water and sewage
service to the family housing area and prepare a utility management brochure
and utility rate review plan as required by Air Force Instruction 32-1061,
“Providing Utilities to U.S. Air Force Installations,” December 1, 1997.
Management concurred with the finding and recommendations.
44. Audit Report No. DD098006, “Utility Cost Management, AF Flight
Test Center, Edwards AFB, CA,” August 10, 1998. The Air Force Flight
Test Center did not always effectively manage the utilities program.
Specifically, the utility engineer did not always validate utility rates or
consumption quantities on billing invoices. The report recommended that the
BCE direct the appointment of a primary and alternate energy/utility engineer to
validate rates and consumption quantities, require all utility billing invoices to
be validated, and periodically review and document the validations.
Management concurred with the finding and recommendations.

45. Audit Report No. DL098009, “Utility Cost Management, Space and
Missile Systems Center, Los Angeles AFB, El Segundo, CA,” July 28, 1998.
The report stated civil engineering personnel did not timely process utility
payments. For example, 40 of 57 utility bills processed by civil engineering
personnel were paid after the due date, resulting in $16,372 in late charges.
The report recommended that the BCE should direct the utility manager to
establish procedures for processing utility bills upon receipt. Management
concurred with the finding and recommendation.

46. Audit Report No. WN098019, “Utility Costs, 56th Fighter Wing,
Luke AFB, AZ,” July 24, 1998. The BCE effectively managed the utility
program. The base obtained utilities at the lowest available rates. However,
utility payments were made after the due dates. For example, Defense Finance
and Accounting Service made utility payments after the due date for 11 of
57 utility payment vouchers, resulting in $5,982 in late charges during FY 1997.
The report recommended that the utility clerk establish a suspense system to
identify utility payment due dates for utility invoices submitted to Defense
Finance and Accounting Service and follow up with Defense Finance and
Accounting Service to verify payments are made before the due dates.
Management concurred with the finding and recommendations.

47. Audit Report No. WM098024, “Utility Cost Management, 92d Air
Refueling Wing, Fairchild AFB, WA,” July 21, 1998. The 92d Air Refueling
Wing did not always establish effective internal controls over base utility costs.
Specifically, the Civil Engineering Squadron utility manager did not document
the basis for utility sales rates provided to reimbursable customers, did not

                                    24
follow procedures to make sure utilities were acquired at the lowest available
rates, and did not use meter readings to verify utility invoices. The report
recommended that the Civil Engineering Squadron utility manager generate
necessary data to verify the accuracy of FY 1997 utility sales rates, re-compute
utility sales rates for FY 1998, complete a thorough analysis of current rate
schedule options for all utilities, and initiate rate schedule changes through
utility companies if analyses identify opportunities for more favorable rate
options. The report also recommended that the Civil Engineering Squadron
utility manager periodically read utility meters and provide the results to Civil
Engineering Squadron funds managers for verification of utility charges.
Management concurred with the findings and recommendations.

48. Audit Report No. WP098026, “Utility Cost Management, 60th Air
Mobility Wing, Travis AFB, CA,” July 15, 1998. The report identified
certain administrative and procedural weaknesses associated with utility
reimbursements. Specifically, the utility engineer did not properly complete and
process all utility sales contracts and/or agreements, and the associated sales rate
exhibits for 14 of 22 base tenants. The utility engineer also did not always
perform periodic facility inspections to ensure that reimbursement amounts were
appropriate. The report recommended that the utility engineer complete
necessary sales contracts and/or agreements, rate exhibits for the tenants
identified as soon as possible, establish procedures to ensure that, by
December 1 each year, sales rate and agreement forms for all relevant tenants
are completed, and copies provided to the real property management office and
the applicable tenant. The report also recommended requesting the utility
engineer to assign a higher priority to performing tenant facility inspections on a
periodic basis. Management concurred with the findings and recommendations.

49. Audit Report No. WS098029, “Utility Costs, 97th Air Mobility Wing,
Altus AFB, OK,” July 2, 1998. The utility program was generally managed
effectively. Especially noteworthy was that management implemented some
utility conservation actions that included monitoring and managing peak
demands for electricity. However, civil engineering personnel did not evaluate
ESPCs as an alternative to conserve utility consumption. The report
recommended that the Deputy Chief of Operations request energy services
contractors to perform energy analyses and submit proposals for cost savings
benefits on ESPC projects approved by Headquarters, Air Education and
Training Command. Management concurred with the finding and
recommendation.

50. Audit Report No. DK098008, “Utility Cost Management, 70th Civil
Engineering Squadron, 70th Air Base Group, Human Systems Center,
Brooks AFB, TX,” June 15, 1998. Civil Engineering Squadron personnel
effectively managed the utility program. However, Civil Engineering Squadron
engineers did not complete the annual utility sales review to identify all
reimbursable activities and to determine whether utility sales agreements were
current. The report recommended that the utility engineer complete Air
Force Form 3557, “Utility Sales Annual Review,” for all reimbursable
customers, Air Force Form 3553, “Utility Sales Agreement for Non-Federal
Organizations,” to cover relevant base tenants, and initiate billing action for

                                    25
utility services used by a tenant that had not been previously billed.
Management concurred with the finding and recommendations.

51. Audit Report No. DK098007, “Utility Cost Management, 76th Civil
Engineer Group, San Antonio Air Logistics Center, Kelly AFB, TX,”
June 8, 1998. Civil Engineering Group personnel effectively managed the
utility program. Of particular note, utility conservation measures were
employed, and a water reuse program to the golf course was the recipient of a
1997 Federal Energy and Water Management Award. However, Civil
Engineering Group utility engineers did not perform a utility sales annual review
to identify all reimbursable activities and to determine whether utility sales
agreements were current. The report recommended that the 76th Civil
Engineering Group require the utility manager to complete Air
Force Form 3557, “Utility Sales Annual Review,” for all reimbursable
customers and complete utility sales agreements for non-federal organizations
(Air Force Form 3553). Management concurred with the finding and
recommendations.

52. Audit Report No. ER098020, “Base Utilities Program, 48th Fighter
Wing, RAF Lakenheath, United Kingdom,” May 20, 1998. Wing personnel
did not maintain current utility sales agreements for reimbursable customers. In
addition, base civil engineering personnel did not install and use utility meters as
required. The report recommended that personnel be directed to review and
update utility agreements every 3 years. Management concurred with the
finding and recommendation.

53. Audit Report No. WS098003, “Review of Utility Cost Management,
71st Flying Training Wing, Vance Air Force Base, OK,” April 1, 1998. The
utility program was effectively managed. Management had implemented
excellent utility conservation actions to minimize utility use. For example,
management achieved a 25 percent reduction in energy consumption for
FY 1997 as compared to the 1985 baseline when the Air Education and Training
Command goal was 16 percent. This reduction was the result of hourly
monitoring of power usage and the implementation of a load shedding program
that prevented power usage from exceeding a limit that was associated with
higher costs.

54. Audit Report No. 23398019, “Management of the Organizational
Utility Cost Sharing Program, 18th Wing, Kadena AB, Japan,”
February 27, 1998. Management controls over the organizational utility cost-
sharing program required strengthening. The report recommended that the Civil
Engineering Group Commander require the base utility manager to requisition
equipment to convert to propane gas and reimbursable fuel. The report also
recommended that the Civil Engineering Group Commander elevate to U.S.
Forces, Japan, the issue of negotiating with the Government of Japan to
consolidate the payment, billing, and reimbursement of utilities to reduce or
eliminate costs not reimbursable under agreement, and the issue of providing a
methodology for properly apportioning the Government of Japan utility refund
received by one Service on behalf of another. Management generally concurred
with the audit findings and recommendations.

                                    26
55. Audit Report No. 51198005, “Management of the Base Utilities
Program, 423d Air Base Squadron, RAF, Alconbury,” January 21, 1998.
The base energy manager did not establish and implement an effective energy
management program plan. The report recommended that the BCE complete
and implement a formal energy management program plan and periodically
review and upgrade the program. Management concurred with the audit
findings and recommendations.

56. Audit Report No. 23398017, “Management of the Non-appropriated
Fund Utility Cost-Sharing Program, 18th Wing, Kadena AB, Japan,”
January 20, 1998. Management controls over the non-appropriated fund utility
cost-sharing program needed strengthening. Management did not submit vendor
invoices and related payment vouchers totaling over $67,700 for propane gas
used over an 8-month period. The report recommended that the base fund
financial management officer obtain a copy of the necessary guidance
concerning Government of Japan reimbursements and direct responsible
personnel to periodically submit copies of invoices and payment vouchers to
U.S. Forces, Japan, for reimbursement. Management concurred with the audit
finding and recommendations.

57. Audit Report No. 51597025, “Management of Base Reimbursements -
Civil Engineering, 314th Airlift Wing, Little Rock AFB, AR,”
September 8, 1997. The report stated that opportunities exist to increase the
effectiveness of utility management. Contracting personnel have an opportunity
to reduce the cost of electric usage. Actual cost data was compiled from the
current electric corporation billings for November 1996 through April 1997 and
compared with the results of another local electric Cooperative’s corporation
rates. The results of the cost comparison indicated that the base was charged
approximately $395,967 more for electrical power for the 6-month period. This
occurred because the base contracting officer understood that only one electric
company could provide service, and therefore did not negotiate the rate
currently charged. Also, BCE personnel did not perform a review of the
contract when it was recently modified to ensure that acquired utilities were at
the most favorable rate available. The report recommended that the base
contracting officer negotiate with the current electricity provider to ensure that
the lowest rates are obtained and ensure that the utility contracts are reviewed
each year and when modified. Management concurred with the audit finding
and recommendations.

58. Audit Report No. 24097018, “Management Oversight of Utility and
Ground Fuel Taxes, 62d Airlift Wing, McChord AFB, WA,” July 18, 1997.
Wing personnel did not effectively manage tax payments for utilities and ground
fuel. Although controls were adequate to ensure management paid only
appropriate taxes on utilities and heating oil, they were not always adequate to
ensure that management collected necessary data to file for refunds from
Washington State motor vehicle fuel tax. The report recommended that the
accounting liaison officer collect relevant data, forward it to the appropriate
Defense Finance Accounting Service Operating Location, and request a motor
vehicle fuel tax refund from the Washington State motor vehicle tax
administration office and do so for future quarterly periods. The report also

                                    27
recommended that the contracting officer collect necessary documents and
forward them to the accounting liaison officer and that the base fuels
management officer provide gasoline inventory data to the accounting liaison
officer monthly. Management concurred with the audit findings and
recommendations.

59. Audit Report No. 23397026, “Management of the Offbase Utility Cost
Sharing Program, 18th Wing, Kadena AB, Japan,” June 18, 1997.
Management controls over the off base utilities program required strengthening.
Specifically, 10,024 utility receipts totaling $369,886 were not submitted to the
Japanese in FY 1996 for reimbursement. In addition, off base utility
reimbursements were not properly allocated. The report recommended that the
18th Wing Commander require all unit commanders to enforce program
requirements to ensure all utility receipts are turned in for reimbursement,
ensure that penalties for non-compliance be effectively communicated, and
require the fund manager to calculate the proper allocation of off base utility
refunds and credit each account appropriately. Management concurred with the
findings and recommendations.

60. Audit Report No. 50697022, “Base Utility Management, 436th Airlift
Wing, Dover AFB, DE,” May 13, 1997. The BCE management of utility
costs could be improved. Specifically, civil engineering personnel did not have
an effective energy awareness program to actively pursue low-cost energy
reductions. The DUERS cumulative percentage reduction report showed no
energy reductions from the 1985 baseline for Dover Air Force Base. Reports
used overstated square footage of buildings by 111,401 square feet in DUERS
calculations. The report recommended that the civil engineering squadron
commander realign the energy manager duties to allow for proactive
management of the energy program; establish an Energy Management Steering
Group in accordance with Air Force directives; conduct periodic energy
awareness meetings with representatives from activities on base; publish
periodic energy awareness articles in the base newspaper, the local area
network, or other sources; and update the energy conservation action plan to
address the 30 percent reduction goal by the year 2005. The report also
recommended that the commander have the energy manager determine which
buildings to exclude from the base’s square footage, enter the appropriate code
for each building in the real property records, use the capabilities in the new
version of DUERS to calculate the square footage of buildings to include in the
cumulative reduction report. Management concurred with the findings and
recommendations.

61. Audit Report No. 20997014, “Management of Tax Exemptions,
355th Wing, Davis-Monthan AFB, AZ,” April 28, 1997. Management did
not claim an exemption for sales taxes on medical facility electrical purchases.
Internal controls governing the payment and certification of monthly electric
bills could be strengthened. The Air Force could recoup an estimated
$80,959 for sales taxes paid during calendar years 1993 through 1996, if a state
sales tax exemption was claimed. The report recommended that the base civil
engineer request that Tucson Power stop charging hospital sales tax, ensure that


                                   28
sales taxes paid for calendar years 1993 through 1996 are recouped, and
maintain a copy of the hospital exemption from sales tax letter. Management
concurred with the finding and recommendations.

62. Audit Report No. 50496015, “Review of Utility Cost Reimbursements,
437th Airlift Wing (AW), Charleston AFB, SC,” May 6, 1996. Internal
controls did not always provide reasonable assurance that utility costs were
properly billed to reimbursable customers. Specifically, 3 activities occupying a
total of 19 facilities were not billed for an estimated $400,355 in utility services.
Also, civil engineering personnel did not install electric meters for
two reimbursable customers with an estimated $238,000 in annual electric
consumption. The report recommended that the BCE initiate action to compute
utility reimbursement for the 19 identified facilities and bill users accordingly
and provide utility reimbursement training to the utility engineer. Further, the
report recommended that the BCE budget for approved meter installation, install
meters, and bill customers. Management concurred with the findings and
recommendations.

63. Audit Report No. 92296031, “Management of Energy Costs,
8th Fighter Wing, Kunsan AB, Korea,” April 1, 1996. The BCE did not
identify, prioritize, and approve energy investment projects nor implement an
effective energy conservation program. Specifically, the BCE did not perform
the required economic analyses, savings investment ratios, project payback
periods, and energy savings validations for eight energy projects and had not
initiated an energy awareness program to achieve energy reduction goals. The
report recommended that the BCE identify and complete cost savings analyses
for energy reduction projects, prioritize energy reduction projects, submit
projects to Headquarters, Pacific Air Forces, for proper FEMP or Energy
Conservation Investment Program funding, and perform the required savings
validations after energy reduction projects are completed. The report also
recommended that the BCE train building managers on energy conservation
practices and develop a method of validation of energy saving as a result of the
energy conservation program. Management concurred with the findings and
recommendations.

64. Audit Report No. 50296024, “Management of Energy Costs,
89th Airlift Wing, Andrews AFB, MD,” March 12, 1996. The management
of energy costs needed improvement. BCE personnel did not properly identify
energy reimbursable customers. In addition, BCE personnel did not require
non-Federal activities to install meters to accurately measure actual electrical
consumption. Further, the base energy manager input inaccurate energy
consumption data into the DUERS. The report recommended that the wing
commander direct all wing elements to send all existing memorandums of
understanding with non-Federal organizations to the BCE for a determination of
whether utility reimbursement is required, establish a system for sending future
memorandums of understanding for a determination of whether utilities
reimbursement is required, direct the BCE to coordinate with the base
comptroller, take appropriate action to collect the amounts due from identified
non-Federal organizations, and require non-Federal activities occupying separate


                                     29
buildings to install meters at their own expense. The report also recommended
that the base energy manager develop a procedure to verify data input into the
DUERS. Management concurred with the findings and recommendations.

65. Audit Report No. 50296023, “Management of Energy Costs,
11th Wing, Bolling AFB, DC,” February 28, 1996. The 11th Wing’s
management of energy costs was generally adequate. However, selected
improvement was needed. One reimbursable customer was not billed for utility
costs. Quarterly DUERS reports were not prepared or submitted. Utility sales
agreements were not accomplished for reimbursable customers. The report
recommended that the BCE direct the utilities systems engineer to bill the thrift
shop for all reimbursable utilities, periodically review the DUERS reports to
ensure that they have been prepared and submitted quarterly as required, and
direct the utilities systems engineer accomplish and properly distribute utility
sales agreements for all reimbursable customers.

66. Audit Report No. 41296009, “Management of Energy Costs, Space and
Missile Systems Center, Los Angeles AFB, CA,” February 20, 1996. The
energy conservation program could be improved. Specifically, in calculations to
prioritize nine energy reduction projects, the savings to investment ratio was
improperly calculated, causing an average savings error of $36,413. In
addition, outdated engineering estimates for utility consumption were used for
non-metered base facilities. The report recommended that the BCE use the
actual kilowatt for savings to investment ratio calculations, direct the financial
manager to train the budget specialist on how to perform a detailed engineering
estimate in accordance with Air Force Instruction 32-1061, “Providing Utilities
to U.S. Air Force Installations,” June 14, 1994, and require an annual detailed
engineering estimate to be accomplished by December 1. Management
concurred with the findings and recommendations.

67. Audit Report No. 91696010, “Management of Energy Costs,
366th Wing, Mountain Home AFB, ID,” February 9, 1996. The base did not
have a local procedure to systematically identify and prioritize energy reduction
projects, relying on major command assistance to identify projects. The
DUERS report was not accurate. Further, a formal energy awareness program
did not exist at the base. The report recommended that the energy manager
establish procedures to systematically accomplish prioritization surveys for each
facility, develop and comply with an energy audit plan for comprehensive
energy audits of each facility, periodically review DUERS reports and data
entries for accuracy, and coordinate with the energy manager to establish a
procedure to always include current square footage in DUERS. The report also
recommended that the base civil engineer obtain a copy of the major command
energy conservation program and develop a local program to comply with its
requirements, require the energy manager to develop an energy awareness
program that encompasses all wing units, and require a base energy steering
group to periodically meet to identify and/or resolve energy issues.
Management generally concurred with the findings and recommendations.




                                    30
68. Audit Report No. 90496016, “Management of Energy Costs, 3d Wing,
Elmendorf AFB, AK,” February 7, 1996. BCE personnel did not achieve
projected savings on two energy projects. These projects called for replacing
400-watt lights with 250-watt, high-pressure sodium lights in two hangars.
Instead, the 400-watt lights were incorrectly replaced with 400-watt,
high-pressure sodium lights. Civil engineering personnel made an error in two
contracts’ scope of work, which told the contractor to use 400-watt,
high-pressure sodium lights. In addition, there was no requirement for energy
management personnel to review the contract’s scope of work to verify that the
design would achieve the desired energy savings. As a result, approximately
$103,000 in FEMP dollars was spent with no resulting savings to justify the
expenditure. The report recommended that the base commander review the two
hangar lighting projects and compute the new construction costs with energy
projected savings, prioritize with future energy projects based on projected
savings, and require that energy office personnel review the scopes of work for
all future energy projects to verify that the design will achieve the desired
energy savings. Management concurred with the finding and recommendations.

69. Audit Report No. 23296012, “Management of Energy Costs,
81st Training Wing, Keesler AFB, MS,” January 31, 1996. The BCE did not
bill one tenant for reimbursable utility costs. The report recommended that the
BCE develop written procedures to bill the identified tenant for utility services
at local prevailing utility sales rates and bill the identified tenant for future
reimbursable utility services at local rates. Management concurred with the
finding and recommendations.

70. Audit Report No. 52596014, “Management of Energy Costs,
4th Fighter Wing, Seymour Johnson AFB, NC,” January 19, 1996. Civil
Engineer personnel did not properly complete some utility reimbursement
agreements. Specifically, some activities did not have reimbursement
agreements, and some agreements did not have a utilities reimbursement rate
schedule. In addition, the BCE energy manager did not have an approved,
base-level energy management improvement plan. A plan was submitted, but
the former wing management did not process the plan for approval. The report
recommended that the BCE require the base energy manager to provide
complete utility reimbursement agreements to all activities that are billed for
utilities used, and that civil engineer management should verify that the base
energy manager provides complete utility reimbursement agreements to all
activities that are billed for utilities used. In addition, the report recommended
that the BCE resubmit an energy management program plan for the wing
commander's approval. Management concurred with the findings and
recommendations.

71. Audit Report No. 22896009, “Management of Energy Costs, 319 Air
Refueling Wing, Grand Forks AFB, ND,” January 3, 1996. The report
identified an energy investment project that was not properly developed and
submitted for funding consideration. The report recommended that the BCE
direct the energy manager to coordinate with appropriate personnel to submit a



                                    31
package requesting energy program funds for the design and construction of the
identified energy investment project. Management concurred with the finding
and recommendation.

72. Audit Report No. 93296009, “Management of Energy Costs, 30th Space
Wing, Vandenberg AFB, CA,” December 29, 1995. Internal controls and
operating procedures used to manage energy costs could be improved. Civil
engineer personnel did not accurately report base energy consumption in the
DUERS. For example, consumption for natural gas purchased from one vendor
was not reported, and utility consumption was either excluded or double
counted. The report recommended that the base energy manager review
information in the DUERS system at least quarterly. Management concurred
with the finding and recommendation.
73. Audit Report No. 91296005, “Management of Energy Costs,
56th Fighter Wing, Luke AFB, AZ,” December 21, 1995. BCE personnel
did not accurately report energy consumption in DUERS. Specifically, gas
consumption was understated by 344 therms (a quarterly understatement of
1.9 percent) because the maintenance engineer used spreadsheets instead of
utility bills as sources for gas consumption. In addition, electric consumption
during May was overstated by 1,659 kilowatts (a quarterly overstatement of
7.6 percent). This occurred because the maintenance engineer did not verify the
accuracy of electric consumption in May for hospital and military family
housing by comparing utility bills to DUERS. Further, the number of buildings
and square footage for the base was understated by 65 buildings and
103,000 square feet (an understatement of 3.3 percent of facility square footage
used in DUERS) because the maintenance engineer did not obtain the correct
data from real property records. The report recommended the Chief of
Maintenance Engineering use monthly electric and gas utility billings as sources
for quarterly DUERS input, compare source documents to DUERS for input
accuracy, and obtain correct real property data for input to DUERS.
Management concurred with the findings and recommendations.

74. Audit Report No. 51296017, “Management of Energy Costs, 65th Air
Base Wing, Lajes Field, The Azores, Portugal,” December 20, 1995.
BCE personnel used outdated utility rates to bill reimbursable customers,
causing undercharges of $229,289. In addition, BCE personnel also did not
install utility meters as required. Further, utility sales agreements were not
completed for four customers. The report recommended the squadron
commander use current period rates to bill base organizations for reimbursable
utilities received, establish procedures to ensure that utility rates are computed
and implemented by December 1 of each year, purchase and install electricity
meters to measure consumption at the organizations meeting criteria for meter
installation, and require the base utility engineer to complete utility sales
agreements for all organizations supplied with reimbursable utilities.
Management concurred with the findings and recommendations.




                                    32
75. Audit Report No. 44096010, “Management of Energy Costs, Oklahoma
City Air Logistic Center, Tinker AFB, OK,” December 20, 1995.
BCE personnel incorrectly entered the quantity and cost of natural gas consumed
for FY 1995 in the DUERS, by using gross amount of natural gas delivered
instead of adjusted metered amount of natural gas received and using the cost
for natural gas used for automobiles already included in energy used for heating
and cooling operations. The report recommended that the 72nd Civil Engineer
Commander instruct the utility engineer to develop a local checklist or other
internal control procedure detailing the transfer of energy quantities purchased
and their cost from the monthly utility bills into the DUERS. Management
concurred with the finding and recommendation.

76. Audit Report No. 270960003, “Management of Energy Costs,
82d Training Wing, Sheppard AFB, TX,” November 13, 1995. The base did
not validate savings after completing energy investment projects, did not collect
all reimbursable utility costs, and did not have a formal energy reduction plan.
The report recommended that the 82nd Civil Engineering Squadron energy
manager validate savings on the completed energy investment projects, place
management emphasis on following established procedures to include validation
of savings on future energy reductions projects, direct responsible personnel to
review property records, identify all reimbursable customers, and develop an
energy plan for FY 1996 through FY 2000 at least. Management concurred
with the findings and recommendations.

77. Audit Report No. 93096011, “Management of Energy Costs,
9th Reconnaissance Wing, Beale AFB, CA,” October 30, 1995. Although the
base had neither a formal energy conservation program nor tailored energy
reduction projects, the base had been successful in meeting its energy reduction
goals with its approach of replacing and upgrading older buildings. However,
BCE personnel did not properly identify and bill base organizations for utilities.
The report recommended that the BCE change the current method of allocating
electrical consumption to reflect the current consumption patterns of the base,
review the utility allocation model to ensure that it accurately reflects actual
consumption, investigate any questionable meter readings, replace the meters if
necessary, revise all utility estimates for facilities without meters by December 1
of each year, and estimate the utility usage for base tenants identified and bill
them if their usage is high enough to justify doing so. Management concurred
with the findings and recommendations.

78. Audit Report No. 51696002, “Management of Energy Costs,
Columbus AFB, MS,” October 23, 1995. Columbus Air Force Base
effectively managed energy costs during FY 1994 and FY 1995. Columbus Air
Force Base properly approved and prioritized the energy investment projects,
had an effective energy conservation program, and properly identified and billed
reimbursable customers for utility costs.




                                    33
79. Audit Report No. 24696004, “Management of Energy Costs, 71st Flying
Training Wing, Vance AFB, OK,” October 23, 1995. Management of
energy costs was effective. Specifically, management properly approved and
prioritized energy investment projects, had an effective energy conservation
program, and also properly identified and billed reimbursable customers for
utility costs. Base energy consumption was reduced by 23.07 percent from the
1985 baseline, well beyond the 11.5 percent reduction for FY 1995.




                                 34
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office




                                          39
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         40
Summary Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing for the Department of Defense prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the report
are listed below.

Garold E. Stephenson
William C. Gallagher
Deborah L Carros
Linh Truong
Kevin T. O’Connor
Walter J. Gaich
Todd Truax
Deana Wyatt
